No.

 

In The
Supreme Court of the Gnited States

KEITH A. TUCKER; LAURA B. TUCKER,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari in the above-referenced case contains 8,922 words, excluding the

parts of the petition exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 2, 2019.

By 7 Wn. Fenn

Gregory G. Garre
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000

Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com

Counsel for Petitioners
